                   U.S. Department of Agriculture

                      Office of Inspector General
                                 Northeast Region




        Audit Report

Agricultural Marketing Service’s
  National Organic Program




                         Report No. 01001-02-Hy
                                      July 2005
                       UNITED STATES DEPARTMENT OF AGRICULTURE
                                   OFFICE OF INSPECTOR GENERAL

                                        Washington D.C. 20250


July 14, 2005

REPLY TO
ATTN OF:        01001-02-Hy


TO:             Kenneth J. Clayton
                Acting Administrator
                Agricultural Marketing Service

ATTN:           David Lewis
                Deputy Administrator
                Compliance and Analysis Programs

FROM:           Robert W. Young       /S/
                Assistant Inspector General
                  for Audit

SUBJECT:        National Organic Program (01001-02-HY)


This report presents the results of our audit of the Agricultural Marketing Service’s National
Organic Program. Your response to the official draft, dated June 24, 2005, is included as exhibit
A. Excerpts of your response and the Office of Inspector General’s position are incorporated
into the Findings and Recommendations section of the report. Based on your response, we were
able to reach management decision on all of the report’s 10 recommendations. Please follow
your agency’s internal procedures in forwarding documentation for final action to the Office of
the Chief Financial Officer.

We appreciate the courtesies and cooperation extended to us by members of your staff during
this audit.
Executive Summary
Agricultural Marketing Service’s National Organic Program
(Audit Report No. 01001-02-Hy)

Results in Brief    This report presents the results of the Office of Inspector General’s (OIG)
                    survey of the Agricultural Marketing Service’s (AMS) National Organic
                    Program (NOP). To accomplish our work, we evaluated current operations at
                    AMS Headquarters. In addition, in the States of California and New York, we
                    visited certifying agents, organic producers, and organic handlers.

                    AMS has the responsibility to enhance the marketing and distribution of
                    agricultural products. Through the NOP, AMS is required to assure that
                    organically produced products meet uniform standards and that they are
                    appropriately labeled. Standards for the NOP do not address food safety or
                    nutrition. Because the NOP regulations were implemented in October 2002,
                    our audit work focused on evaluating AMS’ controls for the program.
                    Overall, we concluded that AMS needed to strengthen the controls for
                    administering the NOP.

                    We found that AMS has not established protocols for working with the
                    National Organic Standards Board (Board) or resolving conflicts with them.
                    Implementation of the NOP and resolution of program-related concerns took
                    precedence over establishing a strong working relationship with the Board.
                    According to the Organic Foods Production Act of 1990 (Act), the Board is
                    to advise the Secretary of Agriculture (Secretary) on the implementation of
                    the Act. AMS did not involve the Board when it issued clarifications to
                    program regulations in April 2004. The Board’s involvement was not
                    necessary because, according to AMS officials, these clarifications were
                    merely stating what is enforceable under existing regulations. The guidance
                    issued involved pesticide use, livestock health, livestock feed, and the scope
                    of the NOP. However, these clarifications were seen as revisions to the
                    regulations by the organic industry and members of the U.S. Congress. As a
                    result, on May 26, 2004, the Secretary rescinded the guidance and directed
                    AMS to work with the Board to correct the issues identified. We also found
                    that AMS has not acted on 26 recommendations from the Board for materials
                    to be approved for or prohibited from use in organic production.

                    AMS also needs to improve management controls for administering the NOP,
                    because internal operating procedures have not been adequately developed
                    and implemented. For example, in fiscal year (FY) 2003, the eight complaints
                    referred to the NOP for a decision have not been resolved, one of which
                    involved a possible prohibited substance being added to an organic product.
                    These eight complaints require an interpretation of NOP regulations. AMS
                    currently does not have a method for making an interpretation of NOP
                    regulations. As a result, AMS has reduced assurance that the NOP is

USDA/OIG-A/01001-02-Hy                                                                     Page i
                   achieving its intended objectives that organic products meet consistent
                   standards.

                   We discussed these concerns with AMS officials who agreed that controls for
                   administering the NOP should be strengthened.

                   As part of our review, we visited nine organic operations. Nothing came to
                   our attention that caused us to question whether these operations were
                   properly certified by United States Department of Agriculture-accredited
                   certifying agents and followed the regulations for the production, handling,
                   and processing of organically grown agricultural products. However, the
                   certifying agents we visited expressed concern that there might be a lack of
                   consistency among agents and their certification of organic operations. They
                   attributed this to AMS not having a uniform method for issuing program
                   guidance to agents. During FY 2005, we plan to further evaluate if
                   agricultural products marketed as organic meet the requirements of the NOP.

Recommendations
In Brief           AMS needs to implement protocols for working with the Board to include
                   defining the scope of the Board’s responsibility. In addition, AMS should
                   direct the NOP to establish procedures for receiving, reviewing, and
                   implementing recommendations from the Board. AMS also needs to develop
                   and implement internal operating procedures for such things as the resolution
                   of complaints to govern program operations. Finally, AMS needs to resolve
                   the eight complaints made in FY 2003 that require an interpretation of NOP
                   regulations.

Agency Response
                   AMS agreed with the report’s recommendations. We have incorporated
                   excerpts from AMS’ response in the Findings and Recommendations section
                   of this report along with the OIG position. AMS’ response is included as
                   Exhibit A.

OIG Position
                   Based on AMS’ response, we were able to reach management decision on
                   each of the report’s 10 recommendations.




USDA/OIG-A/01001-02-Hy                                                                   Page ii
Abbreviations Used in This Report

Act                 Organic Foods Production Act of 1990
AMS Compliance      AMS Compliance and Analysis
AMS                 Agricultural Marketing Service
ANSI                American National Standards Institute
ARC                 Audit, Review, and Compliance
Board               National Organic Standards Board
C.F.R.              Code of Federal Regulations
CCOF                California Certified Organic Farmers
FACA                Federal Advisory Committee Act
FY                  Fiscal Year
National List       The National List of Allowed and Prohibited Substances
NOFA-NY             Northeast Organic Farming Association of New York
NOP                 National Organic Program
OCFO                Office of the Chief Financial Officer
OGC                 Office of the General Counsel
OIG                 Office of Inspector General
Secretary           Secretary of Agriculture
TAP                 Technical Advisory Panels
USDA                U.S. Department of Agriculture
USTR                U.S. Trade Representative




USDA/OIG-A/01001-02-Hy                                                       Page iii
Table of Contents

Executive Summary .................................................................................................................................i

Abbreviations Used in This Report ......................................................................................................iii

Background and Objectives ................................................................................................................... 1

Findings and Recommendations............................................................................................................ 5

    Section 1. The Board .......................................................................................................................... 5

        Finding 1             AMS Needs to Establish Protocols for Working with the Board............................ 5
                                  Recommendation 1 .......................................................................................... 7
                                  Recommendation 2 .......................................................................................... 7
        Finding 2             AMS Needs Established Procedures for Processing the Board
                              Recommendations to the National List of Allowed and Prohibited
                              Substances (National List) ...................................................................................... 8
                                  Recommendation 3 .......................................................................................... 9

    Section 2. AMS’ Management of the NOP .................................................................................... 10

        Finding 3             AMS’ Procedures and Controls to Administer the NOP Need Improvement....... 10
                                Recommendation 4 ........................................................................................ 13
                                Recommendation 5 ........................................................................................ 13
                                Recommendation 6 ........................................................................................ 14
                                Recommendation 7 ........................................................................................ 14
                                Recommendation 8 ........................................................................................ 15
                                Recommendation 9 ........................................................................................ 15
                                Recommendation 10 ...................................................................................... 16

Scope and Methodology........................................................................................................................ 17

Exhibit A – Agency Response .............................................................................................................. 19




USDA/OIG-A/01001-02-Hy                                                                                                                    Page iv
Background and Objectives
Background                              The Agricultural Marketing Service (AMS) was established by the Secretary
                                        of Agriculture (Secretary) on April 2, 1972, under the authority of
                                        Reorganization Plan No. 2 of 1953 (5 U.S.C. App.). Its primary mission is to
                                        enhance the marketing and distribution of agricultural products from the
                                        Nation’s farms. This is achieved through the collection and dissemination of
                                        market news information, the establishment of grading standards, inspection
                                        and grading services, market orders, and various marketing development
                                        programs.

                                        Organic production has been practiced in the United States since the
                                        late 1940’s. From that time, the industry has grown from experimental garden
                                        plots to farms with surplus products to sell under a special “organic” label.
                                        Food manufacturers have developed organic processed products and many
                                        retail-marketing chains specialize in the sale of organic products. This growth
                                        stimulated a need for verification that products are produced according to
                                        certain standards. Thus, the organic certification industry also evolved. By
                                        the late 1980’s, after an attempt to develop a consensus of production and
                                        certification standards, the organic industry petitioned Congress to draft the
                                        Organic Foods Production Act of 1990 (Act).

                                        In the last decade, the organic industry has been growing between 20 and 25
                                        percent annually. United States retail sales of organic foods reached
                                        approximately $7.8 billion in 2000, with global sales topping $17.5 billion.
                                        While organic food represents a small sliver of overall United States grocery
                                        sales, industry analysts expect that sales will grow to $20 billion by 2005.

                                        The Act required the Secretary to establish the National Organic Standards
                                        Board (Board) to assist in the development of standards for substances to be
                                        used in organic production and to advise the Secretary on any other aspects of
                                        the implementation of the Act. The purposes of the Act are to: (1) establish
                                        national standards governing the marketing of certain agricultural products as
                                        organically produced products, (2) assure consumers that organically
                                        produced products meet a consistent standard, and (3) facilitate interstate
                                        commerce in fresh and processed food that is organically produced.

                                        The Act required the Secretary to issue regulations for the legislation, which
                                        included establishing national standards for organic production. The
                                        Secretary delegated 1 the functions with respect to the Act to the U.S.
                                        Department of Agriculture’s (USDA) AMS Administrator. Under the
                                        direction of AMS, the National Organic Program (NOP) was established,
                                        which administers the national standards for the production and handling of


1
    Title 7, Code of Federal Regulations (C.F.R.) § 2.79(a)(8)(liii), January 2004.

USDA/OIG-A/01001-02-Hy                                                                                          Page 1
                                   organically produced products. Organizationally, the NOP is part of AMS’
                                   Transportation and Marketing Programs.

                                   AMS administers the NOP primarily through staff assigned to the program.
                                   Two other AMS program areas assist the NOP staff. AMS Compliance and
                                   Analysis (AMS Compliance) is responsible for all NOP-related complaints
                                   received except those that need to be forwarded to the NOP for a policy
                                   decision. In April 2004, AMS Compliance was also delegated the
                                   responsibility to manage all NOP appeals. AMS’ Audit, Review, and
                                   Compliance (ARC) Branch completes the reviews of certifying agents and
                                   then provides accreditation recommendations to the NOP.

                                   The NOP, through regulations effective in October 2002, facilitates the
                                   domestic and international marketing of fresh and processed food that is
                                   organically produced and assures consumers that such products meet
                                   consistent, uniform standards. The NOP also requires that agricultural
                                   products labeled as organic originate from farms or handling operations
                                   certified by a State or private entity that has been accredited by the USDA.
                                   Neither the Act nor the NOP regulations address food safety or nutrition.

                                   Production and handling operations seeking to receive or maintain organic
                                   certification must be certified by a USDA-accredited certifying agent. Agents
                                   may be State, private, or foreign organizations, which grant organic
                                   certification upon determining that an operation’s procedures are in
                                   compliance with the Act and the NOP regulations. Certifying agents also
                                   conduct annual reviews of certified operations to verify that they continue to
                                   comply with the Act and regulations. As of January 2005, there were
                                   97 (56 domestic, 41 foreign) USDA-accredited certifying agents.

                                   The AMS Administrator established a peer review panel to evaluate the
                                   NOP’s procedures for the accreditation of certifying agents. AMS contracted
                                   with the American National Standards Institute (ANSI) to conduct this
                                   evaluation. Overall, ANSI, in its report 2 , determined that AMS was lacking
                                   documented policies and procedures for its accreditation of certifying agents.
                                   ANSI also commended ARC’s highly professional and complete on-site
                                   review of certifying agents.

                                   Agricultural products may be labeled as organic only if the product has been
                                   produced and handled in accordance with the regulations. Organic
                                   agricultural products must be labeled based on their percentage of organic
                                   composition. For instance, the USDA organic seal tells consumers that a
                                   product is at least 95 percent organic. Products with 70 to 95 percent organic
                                   ingredients can say so on the label but they cannot display the seal.


2
    ANSI Peer Evaluation Report, “USDA-Agricultural Marketing Service Accreditation of Certifying Agents under the National Organic Program,”
    issued December 8, 2004.

USDA/OIG-A/01001-02-Hy                                                                                                             Page 2
                                    The Act provides that a State may apply to the Secretary to implement an
                                    organic program for agricultural products that have been produced and
                                    handled within that State. If the Secretary approves the State Organic
                                    Program, the State is responsible for administering a compliance program for
                                    enforcement of the NOP and any more restrictive requirements contained in
                                    the State Organic Program. The Secretary must approve all State programs.
                                    California and Utah are currently the only States with approved State Organic
                                    Programs.

                                    AMS has allocated funds to provide certification cost-share assistance to
                                    producers and handlers of organic agricultural products. There are two
                                    separate cost-share programs in place differentiated by the way each program
                                    is funded. One is the 2002 National Organic Certification Cost-Share
                                    Program, which was a one-time issuance, until exhausted, of $5 million
                                    appropriated from the Farm Security and Rural Investment Act of 2002 for
                                    the entire United States to organic producers and handlers. The other is the
                                    Agricultural Management Assistance Program, which is a $1 million annual
                                    appropriation that is allocated among 15 States 3 to organic producers only.
                                    Both programs provide payments limited to 75 percent of certification costs,
                                    up to a maximum of $500.

                                    The NOP sets forth three options for permitting imported agricultural
                                    products to be sold, labeled, or represented as organic in the United States.
                                    One way is to have USDA-accredited certifying agents certify foreign
                                    products to the NOP. Another way is to have the USDA recognize a foreign
                                    government to accredit agents to certify production and handling operations
                                    to The United States standard. Finally, the U.S. Government may negotiate
                                    an equivalency agreement with a foreign government that would allow
                                    products to be marketed as organic in the United States.

Objectives                          The objective of our review was to identify and evaluate AMS’ controls over
                                    the NOP. Specifically, we assessed whether: (1) AMS had developed and
                                    applied guidelines, with adequate assistance of the Board, to be used by
                                    certifying agents for monitoring and certifying organic producers and
                                    handlers that produce organic agricultural products for the purpose of selling
                                    to the public, (2) the producers using the “USDA Organic” label were
                                    certified by a State or private agency accredited by AMS, and (3) the
                                    producers and handlers were following the guidelines and regulations set by
                                    the NOP, as well as the national standards for the production, handling, and
                                    processing of organically grown agricultural products.

                                    To accomplish the objective, we performed fieldwork at AMS Headquarters,
                                    two State Departments of Agriculture, and two certifying agents accredited
                                    by the USDA. We also visited a total of nine organic operations certified by

3
    The 15 States include: Connecticut, Delaware, Maine, Maryland, Massachusetts, Nevada, New Hampshire, New Jersey, New York, Pennsylvania,
    Rhode Island, Utah, Vermont, West Virginia, and Wyoming.

USDA/OIG-A/01001-02-Hy                                                                                                                 Page 3
                   either of the two certifying agents. Our audit work primarily covered NOP
                   policies, procedures, and activities related to fiscal years (FYs) 2003 and
                   2004. The NOP regulations became effective in October 2002. (See Scope
                   and Methodology for details.)




USDA/OIG-A/01001-02-Hy                                                                 Page 4
Findings and Recommendations
Section 1. The Board

                       AMS, through the NOP, is responsible for facilitating the domestic and
                       international marketing of fresh and processed food that is organically
                       produced and assuring consumers that such products meet consistent,
                       uniform standards. The Board is to assist in the development of standards for
                       substances to be used in organic production and to advise on any other
                       aspects of the implementation of the Act.

                       We found that AMS has not established protocols for working with the
                       Board. Implementation of the NOP and resolution of program-related
                       concerns took precedence over establishing a strong working relationship
                       with the Board. For example, AMS officials did not involve the Board prior
                       to issuing guidance statements to certifying agents. In May 2004, the
                       Secretary rescinded a directive and three guidance documents released by
                       AMS and directed the agency to work with the Board on those issues.

                       We also learned that AMS does not have procedures for handling the Board
                       recommendations for substances to be used in organic production.


Finding 1              AMS Needs to Establish Protocols for Working with the Board

                       AMS is not effectively administering the NOP, because the agency has not
                       established protocols for working with the Board or for resolving conflicts
                       with them. According to AMS officials, conflicts over the scope of the
                       Board’s authority stem from the Act, which states that the Board may provide
                       advice on “any other aspects of the implementation of this title.” In May
                       2004, the Secretary withdrew AMS’ attempts to clarify program regulations
                       without first receiving the Board’s input. The Secretary also directed AMS to
                       work with the Board to correct the issues identified as needing clarification.

                       The Act allows the Board to advise on “any other aspects of the
                       implementation of this title,” and requires the Board to comply with the
                       Federal Advisory Committee Act (FACA). According to AMS officials, they
                       met with representatives of the Office of the General Counsel (OGC) in July
                       2004, to seek counsel on the role of the Board in the administration of the
                       NOP. AMS officials have not been able to provide us with documentation
                       that outlines the specific advice the agency sought from OGC. According to
                       AMS officials, OGC informed them that seeking the Board’s input on any
                       aspect related to the organic regulation must be done in a public meeting in
                       order to comply with FACA.



USDA/OIG-A/01001-02-Hy                                                                        Page 5
                   In April 2004, AMS issued the following directive and three guidance
                   statements concerning pesticide use, livestock health, livestock feed, and the
                   scope of the NOP.

                   •     Pesticides Containing Inert Ingredients. The directive issued by AMS
                         attempted to clarify how certifying agents are to enforce the prohibition
                         on using pesticides that contain certain inert ingredients, e.g., manure,
                         paraffin wax. Specifically, the directive stated that if after reasonable
                         efforts, certifying agents are unable to ascertain whether inert ingredients
                         in a pesticide are allowed by NOP regulations, the certifying agents
                         would approve the producer’s organic system plan.

                   •     Use of Drugs in Dairy Animals. AMS issued a guidance statement on a
                         livestock health care practice. The guidance permitted the use of drugs
                         such as antibiotics for the treatment of illness in organic dairy animals as
                         long as there is a 12-month gap between the use of the drug and the
                         marketing of the milk.

                   •     Livestock Feed. AMS issued a guidance statement that allowed the use of
                         fishmeal as a protein supplement for livestock feed as long as it complied
                         with the Federal Food, Drug, and Cosmetic Act.

                   •     Scope of the NOP. AMS issued a guidance statement that the Act does
                         not extend to products over which USDA has no regulatory authority;
                         therefore, such products are not eligible for NOP certification. These
                         products included fish and seafood, cosmetics, body care products, and
                         dietary supplements.

                   According to AMS officials, these documents were merely stating what is
                   enforceable under the existing regulations. Because AMS viewed the
                   guidance statements as clarifications, the agency did not seek input from the
                   Board prior to releasing the documents. However, representatives from the
                   organic industry and members of the U.S. Congress expressed concerns that
                   these clarifications revised the program regulations. As a result, on
                   May 26, 2004, the Secretary rescinded the guidance and directed AMS to
                   work with the Board to correct the issues identified. The rescission by the
                   Secretary also demonstrated that AMS needed to establish a protocol for
                   resolving conflicts between the Board and NOP staff.

                   AMS has not defined the scope of the Board’s responsibilities or the method
                   for resolving conflicts with the Board. Accordingly, the agency has reduced
                   assurance that the NOP is being effectively administered.




USDA/OIG-A/01001-02-Hy                                                                        Page 6
Recommendation 1

                   Develop and implement a protocol for working with the Board as an advisory
                   committee. Ensure that the protocol defines the scope of the Board’s
                   responsibility and explains their role under FACA.

                   Agency Response.

                   AMS concurs with this recommendation. NOP will develop a more rigorous
                   FACA training session, including written materials, to be distributed at the
                   next Board meeting at which new members will be seated (early Spring
                   2006). At this next meeting, NOP will also make FACA training mandatory
                   for all Board members, to ensure that they understand both their
                   responsibilities and limits of authority under FACA. NOP will develop
                   procedures to accompany the FACA training, to be completed by,
                   December 31, 2005.

                   OIG Position.

                   We accept AMS’ management decision. For final action, AMS needs to
                   provide the Office of the Chief Financial Officer (OCFO) with the material
                   used to train Board members on their roles and responsibilities.

Recommendation 2

                   Develop and implement a protocol for resolving conflicts between the Board
                   and NOP staff.

                   Agency Response.

                   AMS agrees that resolving conflicts between the Board and NOP staff is a
                   priority, and is taking steps to accomplish this objective. An Executive
                   Director for the Board will be hired by September 30, 2005; this individual,
                   while a federal employee, will work closely with the Board to assist them in
                   preparing their recommendations on materials and other issues related to the
                   NOP regulations. NOP also has begun to work more closely with the Board
                   to help them develop procedures to answer questions or address issues posed
                   by NOP that may be somewhat controversial in nature. These issues (and the
                   procedures) may involve taking public comment at public meetings in
                   accordance with FACA and drafting recommendations to request that NOP
                   publish guidance on various regulatory issues. The Board expects to vote on
                   these new procedures at its upcoming August 2005 meeting. Thus, AMS
                   expects to complete these initiatives to address this recommendation by
                   September 30, 2005.




USDA/OIG-A/01001-02-Hy                                                                  Page 7
                   OIG Position.

                   We accept AMS’ management decision. For final action, AMS needs to
                   provide OCFO with the procedures documenting the protocol for resolving
                   conflicts between the Board and NOP staff.


Finding 2          AMS Needs Established Procedures for Processing the Board
                   Recommendations to the National List of Allowed and Prohibited
                   Substances (National List)

                   AMS is not adequately amending the regulation that codifies the National
                   List. Amendments to the National List are based on recommendations from
                   the Board. We identified that AMS does not have procedures for receiving,
                   reviewing, and implementing recommendations from the Board.
                   Consequently, AMS has not acted on 26 recommendations submitted by the
                   Board since May 2002, for potential substances to be used in organic
                   production.

                   The Act requires the Secretary to establish the Board to assist in the
                   development of standards for substances to be used in organic production.
                   The allowed and prohibited substances on the National List are codified at
                   Title 7, C.F.R. §205.601 through §205.606.

                   The National List identifies specific substances, which may or may not be
                   used in organic production and handling operations. The National List is
                   based upon recommendations provided by the Board to add or remove
                   substances from the National List. The Board makes its recommendations to
                   AMS and the agency amends the National List through formal revisions to
                   the program regulation.

                   In October and November 2003, AMS issued final rules to add 14 substances
                   to the National List. These substances had been included in recommendations
                   from the Board to AMS from June 2000 to October 2002. According to an
                   AMS official, the Board did not submit a formal document to the agency
                   stating the recommendations. AMS staff accepted these recommendations
                   verbally and worked with the Board to record them. In April 2004, AMS and
                   the Board agreed to start documenting the Board’s recommendations;
                   however, the procedures for doing this have not been developed and
                   implemented.

                   Although AMS acted on the recommendations for the 14 substances, we
                   found other recommendations that have not been addressed and are still
                   outstanding. Since May 2002, the Board has submitted a total of
                   26 recommendations for substances to be added to the National List, which
                   AMS has not acted on. These substances include such things as gelatin,

USDA/OIG-A/01001-02-Hy                                                                 Page 8
                   activated carbon, and hydrogen chloride. However, we concluded that the
                   National List has not been adequately amended because AMS does not have
                   procedures for receiving, reviewing, and implementing recommendations
                   from the Board.

Recommendation 3

                   Develop and implement procedures for receiving, reviewing, and
                   implementing recommendations from the Board on revisions to the National
                   List.

                   Agency Response.

                   AMS concurs with this recommendation. Since the review, NOP has worked
                   diligently to develop a new statement of work for Technical Advisory Panels
                   (TAP) to perform scientific analyses on materials submitted to the Board for
                   review and approval. NOP also has increased the submission requirements
                   for petitioners submitting materials for TAP reviews to NOP. NOP also
                   worked with the Board to develop more documented procedures for the
                   Board to submit to NOP to explain their recommendations based on the
                   scientific evidence provided from TAP reviews, in order to facilitate the
                   rulemaking process. These procedures should increase the efficiency of
                   processing future Board recommendations regarding materials to be added to
                   the National List. Final procedures will be completed by September 30, 2005.

                   OIG Position.

                   We accept AMS’ management decision. For final action, AMS needs to
                   provide OCFO with a copy of the procedures implemented to address this
                   recommendation.




USDA/OIG-A/01001-02-Hy                                                                  Page 9
Section 2. AMS’ Management of the NOP


Finding 3          AMS’ Procedures and Controls to Administer the NOP Need
                   Improvement

                   AMS personnel have not adequately developed and implemented internal
                   operating procedures, such as the accreditation of certifying agents and
                   appeals of noncompliance decisions, to govern program operations.
                   According to AMS personnel, initiation of the program took precedence over
                   the development and implementation of procedures. As a result, AMS has
                   reduced assurance that the NOP is achieving its intended objectives to ensure
                   that organic products meet consistent, uniform standards.

                   The Office of Management and Budget Circular No. A-123, Management
                   Accountability and Control, dated June 1995, states that agency managers
                   shall incorporate management controls in the strategies, plans, guidance, and
                   procedures that govern their programs and operations. Agencies and
                   individual Federal managers must take systematic and proactive measures to
                   develop and implement appropriate, cost-effective management controls for
                   results-oriented management.

                   In April 2005, we met with the AMS Deputy Administrator for
                   Transportation and Marketing for an update on the agency’s efforts to finalize
                   NOP procedures. She provided the current drafts of the procedures and
                   explained that a team has been assembled to finalize them.

                   Accreditation of Certifying Agents

                   AMS has not fully developed, documented, or implemented its process for
                   managing the accreditation of certifying agents. AMS’ ARC Branch assists
                   the NOP in the accreditation of certifying agents. ARC evaluates the material
                   included in a certifying agent’s application through a detailed examination of
                   the documentation and an on-site review of the agent’s operation. ARC then
                   recommends to the NOP whether the certifying agent should be accredited.
                   The NOP approves the recommendation to the AMS Administrator for the
                   final accreditation decision.

                   As of January 2005, AMS had accredited 56 domestic certifying agents that
                   had certified over 10,000 operations as organic. We found that NOP staff
                   does not validate the recommendation from ARC on whether to accredit the
                   certifying agent even though the NOP staff is ultimately responsible for the
                   accreditation process. The recommendation provided by ARC is merely
                   forwarded to the AMS Administrator for approval. In our discussions of this


USDA/OIG-A/01001-02-Hy                                                                   Page 10
                                   weakness with NOP staff, they agreed that they should be more involved in
                                   evaluating ARC’s recommendation to accredit certifying agents.

                                   The AMS Administrator contracted with ANSI to evaluate the accreditation
                                   activities of the NOP. In its 2004 report, 4 ANSI commended ARC’s highly
                                   professional and complete on-site review of certifying agents. ANSI also
                                   found that AMS was without a number of documented policies and
                                   procedures in place for its accreditation of certifying agents. In response to
                                   this finding, AMS agreed to document these policies and procedures.

                                   Program Guidance

                                   AMS does not have a standardized, written method for providing program
                                   information to certifying agents, and AMS has not used a consistent strategy
                                   to notify the agents of program updates. For example, various methods have
                                   been used including policy statements, letters, and a question and answer
                                   section on the NOP website. We also found that these resources are
                                   unorganized, making it difficult to locate information. Certifying agents we
                                   visited also expressed concern about AMS’ issuance of program guidance.
                                   Because there is no uniform method, they explained there might be a lack of
                                   consistency among agents and their certification of organic operations.
                                   During FY 2005, we plan to further evaluate if agricultural products
                                   marketed as organic meet the requirements of the NOP.

                                   Appeals of Noncompliance Decisions

                                   AMS has not developed and implemented procedures for reviewing and
                                   adjudicating appeals of noncompliance decisions. The Act provides affected
                                   persons the right to appeal any adverse actions taken against their organic
                                   certification or accreditation.

                                   For example, in March 2003, an operation in California appealed the
                                   certifying agent’s decision to deny certification. A certifying agent
                                   determined that a prohibited substance was applied to this operation, deeming
                                   it ineligible for certified organic status. NOP officials stated that this appeal
                                   was resolved in August 2004 (17 months after the appeal was filed). In
                                   addition, an operation in New York appealed a decision that took over
                                   14 months to resolve. According to NOP officials, this appeal required
                                   resolution before an administrative law judge.

                                   According to NOP officials, the oversight of appeals was moved to AMS
                                   Compliance in April 2004. AMS Compliance has been directed to develop
                                   standard operating procedures for reviewing and adjudicating appeals.


4
    ANSI Peer Evaluation Report, “USDA-Agricultural Marketing Service Accreditation of Certifying Agents under the National Organic Program,”
    issued December 8, 2004.

USDA/OIG-A/01001-02-Hy                                                                                                            Page 11
                   Management of Complaints

                   AMS officials currently do not have a documented protocol established for
                   evaluating and resolving complaints received regarding the NOP. Depending
                   on the nature of the complaint, it is handled by either AMS Compliance or
                   the NOP staff.

                   According to AMS Compliance, they first review a complaint to determine if
                   it requires an interpretation of NOP regulation. If not, AMS Compliance
                   resolves the complaints without NOP assistance. However, AMS Compliance
                   does not have a documented method for resolving complaints. In FY 2003,
                   AMS Compliance received 114 NOP-related complaints and resolved 106 of
                   them.

                   If an interpretation of the NOP regulations is necessary to resolve a
                   complaint, AMS Compliance forwards them to the NOP staff for a decision.
                   For 8 of the 114 NOP-related complaints in FY 2003, an interpretation of
                   NOP regulations was needed. The NOP staff has not issued a decision on any
                   of these eight complaints because analyses of the complaints have not been
                   completed and the NOP does not have a method for making an interpretation
                   of NOP regulations. One of these complaints involved a certifying agent
                   allegedly permitting an organic operation to apply malic acid, a prohibited
                   substance, to an organic product.

                   In April 2005, we confirmed with AMS that the eight FY 2003 complaints
                   had yet to be resolved.

                   In February 2005, AMS published for comment in the Federal Register the
                   agency’s procedures for the development, issuance, and use of NOP guidance
                   documents. According to AMS officials, complaints that involve an
                   interpretation of NOP regulations should be addressed and resolved in a more
                   timely fashion when this guidance is finalized. AMS still needs to finalize
                   procedures to inform affected parties of the status of their complaints.

                   Other Areas Without Finalized Operating Procedures

                   •     Cost-Share Programs. AMS has not documented its procedures for
                         maintaining and controlling cost-share programs. These programs provide
                         payments to producers or handlers of organic agricultural products
                         limited to 75 percent of their certification costs, up to a maximum of
                         $500. AMS officials are not maintaining records for the cost-share
                         programs. The activity reports used for recordkeeping were primarily
                         blank. The missing information included such key items as funds
                         disbursed and unused for the programs. Accordingly, there was no
                         evidence that AMS was monitoring the use of program funds.



USDA/OIG-A/01001-02-Hy                                                                  Page 12
                   •     Equivalency Determinations. AMS does not have internal operating
                         procedures finalized for making equivalency determinations. The Act
                         provides that imported agricultural products may be sold or labeled as
                         organically produced if the Secretary determines that such products have
                         been produced and handled under an organic certification program
                         equivalent to the Act. According to the NOP regulations, the U.S.
                         Government may negotiate an equivalency agreement with a foreign
                         country that would allow products to be marketed as organic in the
                         United States. As of August 2004, only Japan has negotiated an
                         equivalency agreement with the United States. This is a unilateral
                         agreement only allowing NOP certified organic products to be exported
                         to Japan. There are currently no equivalency agreements permitting
                         imported organic products into the United States, although initial
                         discussions have been held with representatives of the European Union.

                   AMS needs to develop and implement internal operating procedures to assure
                   that the NOP is achieving its intended objectives to ensure that organic
                   products meet consistent, uniform standards.

Recommendation 4

                   Develop and implement procedures for reviewing and validating ARC
                   recommendations on the accreditation of certifying agents.

                   Agency Response.

                   AMS concurs with this recommendation. Since the review, NOP staff have
                   met with ARC staff to develop a formalized process for review and validation
                   of ARC recommendations on accreditation of certifying agents. Final
                   procedures will be completed by September 30, 2005.

                   OIG Position.

                   We accept AMS’ management decision. For final action, AMS needs to
                   provide OCFO with a copy of the procedures implemented to address this
                   recommendation.

Recommendation 5

                   Develop and implement procedures for creating and issuing clarifications to
                   program regulations. These procedures should standardize the method that
                   will be used to provide guidance to certifying agents and other interested
                   parties.




USDA/OIG-A/01001-02-Hy                                                                   Page 13
                   Agency Response.

                   AMS concurs with this recommendation. In January 2005, AMS issued a
                   Federal Register notice to all interested parties explaining how guidance
                   would be issued to clarify program regulations. Such guidance will use the
                   Federal Register and NOP web site, and will include regular annual updates.
                   AMS also has developed and begun to disseminate procedures to its
                   certifying agents for communicating about administrative processes under the
                   NOP regulation, including all applicable regulations under subpart G of 7
                   C.F.R. 205. Final procedures will be established by September 30, 2005. In
                   addition, AMS is reconstructing the NOP website to bring it into
                   conformance with USDA’s new website design, which will facilitate use by
                   all outside parties.

                   OIG Position.

                   We accept AMS’ management decision. For final action, AMS needs to
                   provide OCFO with a copy of the procedures implemented to address this
                   recommendation.

Recommendation 6

                   Develop and implement procedures for reviewing and adjudicating appeals of
                   noncompliance decisions.

                   Agency Response.

                   AMS concurs with this recommendation. Since the review, NOP staff have
                   worked with Compliance staff and the OGC to develop procedures for review
                   and adjudication of all adverse action decisions. Procedures will be finalized
                   by September 30, 2005

                   OIG Position.

                   We accept AMS’ management decision. For final action, AMS needs to
                   provide OCFO with a copy of the procedures implemented to address this
                   recommendation.

Recommendation 7

                   Develop and implement a protocol for evaluating and resolving complaints,
                   including circumstances when a NOP policy interpretation is required. This
                   should include procedures for informing affected parties of the status of their
                   complaints.




USDA/OIG-A/01001-02-Hy                                                                   Page 14
                   Agency Response.

                   AMS concurs with this recommendation. NOP has begun working with
                   Compliance staff to develop procedures for evaluating complaints, including
                   determination of complaints that may need policy interpretation from NOP,
                   and procedures for informing affected parties of the status of their
                   complaints. Final procedures will be developed no later than
                   September 30, 2005.

                   OIG Position.

                   We accept AMS’ management decision. For final action, AMS needs to
                   provide OCFO with a copy of the procedures implemented to address this
                   recommendation.

Recommendation 8

                   Resolve the eight complaints from FY 2003 that require an interpretation of
                   NOP regulations.

                   Agency Response.

                   AMS concurs that the eight complaints requiring an interpretation of NOP
                   regulations should be resolved, and will strive to do so no later than
                   September 30, 2005.

                   OIG Position.

                   We accept AMS’ management decision; however we encourage AMS to
                   resolve these complaints as soon as it is practicable because the complaints
                   are almost 3 years old. For final action, AMS needs to provide OCFO with
                   documentation that the eight cases have been resolved.

Recommendation 9

                   Develop and implement procedures for maintaining and controlling
                   cost-share programs.

                   Agency Response.

                   AMS concurs with this recommendation. Since the review, procedures have
                   been implemented for maintaining and controlling cost-share programs under
                   the two separate programs. Cost-share procedures will be annually reviewed
                   and updated as appropriate by the close of each FY (September 30, 2005).




USDA/OIG-A/01001-02-Hy                                                                 Page 15
                    OIG Position.

                    We accept AMS’ management decision. For final action, AMS needs to
                    provide OCFO with a copy of the procedures implemented to address this
                    recommendation.

Recommendation 10

                    Develop and implement procedures for making equivalency determinations.

                    Agency Response.

                    The Office of the U.S. Trade Representative (USTR) has sole authority to
                    engage foreign nations in discussions of trade matters. When such
                    discussions involve the NOP regulation, AMS serves as the technical advisor
                    to USTR. AMS has had draft operating procedures for making equivalency
                    determinations since March 2004 and has been holding them in draft form
                    pending on-going negotiations to determine whether changes were needed.
                    AMS will publish the draft procedures for public comment by
                    December 31, 2005.

                    OIG Position.

                    We accept AMS’ management decision. For final action, AMS needs to
                    provide OCFO with a copy of the procedures implemented to address this
                    recommendation.




USDA/OIG-A/01001-02-Hy                                                                 Page 16
Scope and Methodology
                   Our audit work primarily covered the NOP policies, procedures, and
                   activities related to FY’s 2003 and 2004. The NOP regulations became
                   effective in October 2002. We conducted fieldwork from January 2004
                   through July 2004 at AMS Headquarters, two State Departments of
                   Agriculture, and two certifying agents accredited by the USDA. We also
                   visited a total of nine certified organic operations. In April 2005, we met with
                   AMS officials to update our understanding of NOP policies, procedures, and
                   activities. Our audit was conducted in accordance with generally accepted
                   government auditing standards.

                   AMS Headquarters

                   To identify and evaluate AMS’ controls over the NOP, we held discussions
                   with various AMS officials. At AMS Headquarters, we interviewed personnel
                   at the NOP, AMS Compliance, and ARC. We also reviewed directives and
                   guidance to certifying agents, policies and procedures related to program
                   oversight and administration, and records maintained for certified organic
                   operations.

                   We also held a discussion with the Board to obtain an understanding of its
                   role with the NOP.

                   State Departments of Agriculture

                   State offices do not have any NOP responsibility unless the State has an
                   approved State Organic Program, which gives the State enforcement and
                   compliance responsibility for the program.

                   In February 2004, California became the first State to have their State
                   Organic Program approved. Because of the recent approval, we visited the
                   California Department of Food and Agriculture to identify how the State
                   would carry out enforcement activities.

                   We also held a discussion with the New York State Department of
                   Agriculture and Markets. New York does not have an approved State Organic
                   Program. We chose to visit this State because it has received the most funds
                   from the NOP annual cost-share program.

                   Accredited Certifying Agents

                   We selected two accredited certifying agents for review to obtain an
                   understanding of their responsibilities regarding the NOP. We selected the
                   California Certified Organic Farmers (CCOF) for review because it was the

USDA/OIG-A/01001-02-Hy                                                                    Page 17
                   largest certifying agent, in terms of producers certified, in the United States.
                   We selected the Northeastern Organic Farming Association of New York
                   (NOFA-NY) for review because it was one of the largest certifying agents, in
                   terms of producers certified, in the Northeastern United States. We
                   interviewed office staff and reviewed procedures related to management
                   controls, oversight of certified operations, the process for certifying organic
                   producers and handlers, and the measures used to prevent conflicts of interest
                   with the agent’s certified operations.

                   Certified Organic Operations

                   We visited a total of nine organic operations certified by either the CCOF or
                   NOFA-NY. We conducted a tour and held discussions with their staff to
                   obtain an understanding of the product being produced and validate the
                   agent’s process for certifying the operations.




USDA/OIG-A/01001-02-Hy                                                                    Page 18
Exhibit A – Agency Response
                              Exhibit A – Page 1 of 5




USDA/OIG-A/01001-02-Hy                     Page 19
                         Exhibit A – Page 2 of 5




USDA/OIG-A/01001-02-Hy                Page 20
                         Exhibit A – Page 3 of 5




USDA/OIG-A/01001-02-Hy                  Page 21
                         Exhibit A – Page 4 of 5




USDA/OIG-A/01001-02-Hy                Page 22
                         Exhibit A – Page 5of 5




USDA/OIG-A/01001-02-Hy                   Page 23
